Audit Report



Return to the USDOJ/OIG Home Page




Office of Justice Programs, Bureau of Justice Assistance, Property Crimes Task Force Grant Awarded to the Spokane County Board of Commissioners, Grant Number 2001-DD-BX-0057, Spokane, Washington

Report No. GR-90-04-016


September 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Property Crimes Task Force (PCTF) grant, including supplements, awarded by the U.S. Department of Justice, Office of Justice Programs, Bureau of Justice Assistance to the Spokane County Board of Commissioners, Spokane, Washington.  The purpose of this grant was to formalize a collaborative investigative effort to conduct investigations, prevention, and capacity-building activities that focus on property crimes.  The collaboration is a multiagency task force composed of the Spokane County Sheriff's Department, Spokane Police Department, Washington State Patrol and the Spokane County Prosecutor's office.  The Spokane County Sheriff's Department (SCSD) is the lead organization for the PCTF.  We tested the SCSD's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Our audit revealed that controls over the accounting process and records related to the grant were adequate.  We reviewed SCSD's compliance with essential grant conditions and found no weaknesses in SCSD's accounting records.

However, we did find that the SCSD did not submit progress reports to OJP, as required.  This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.